WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-6593

Dustin Lee MacLeod

v.

William Moritz, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□
✔ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

William Moritz, Wade Hamilton, Steve Milford, Scott Whitcomb, Rick McDonald,
Greg Drogowski, Eric Botorff, Lori Buford, and Dennis Knapp.
I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
g since your
y
)
your name has changed
admission):
Signature
Date:

12/29/2020

(Type or print) Name

Fadwa A. Hammoud, Solicitor General
□ Mr.

Firm

□ Ms.

□ Mrs.

Michigan Department of Attorney General

Address

Post Office Box 30212

City & State Lansing, Michigan
Phone

□ Miss

Zip

48909

(517) 335-7628

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

Dustin Lee MacLeod
5759 S. Ridge Rd. Sault Ste. Marie, MI 49783

CC:

